                                     SOCIAL SECURITY
MEMORANDUM

Date:   October 28, 2009                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Office
              of Acquisition and Grants’ Staffing to Process American Recovery and
        Reinvestment Act of 2009 Acquisitions (A-15-10-11011)


        The attached final report presents the results of our review. Our objective was to
        determine whether the Social Security Administration’s Office of Acquisition and Grants
        had sufficient qualified staff to process Agency acquisitions funded with American
        Recovery and Reinvestment Act of 2009 dollars.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
      QUICK RESPONSE
       EVALUATION


Office of Acquisition and Grants’ Staffing
    to Process American Recovery and
 Reinvestment Act of 2009 Acquisitions
               A-15-10-11011




               October 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                              Background
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA)
Office of Acquisition and Grants (OAG) had sufficient qualified staff to process Agency
acquisitions funded with American Recovery and Reinvestment Act of 2009 (Recovery
Act) dollars.

BACKGROUND
Under the Recovery Act, SSA received $1.09 billion for program and operational
purposes.1 Additionally, Congress provided $2 million for SSA’s Office of the Inspector
General (OIG) to conduct oversight and audit of SSA programs, projects, and activities
funded by the Recovery Act. 2 The Recovery Act established a Recovery Accountability
and Transparency Board (the Board) to coordinate and conduct oversight of covered
funds to prevent fraud, waste, and abuse. 3 Specific functions of the Board include
determining whether (1) there are sufficient qualified acquisition and grant personnel
overseeing covered funds and (2) personnel whose duties involve acquisitions or grants
made with covered funds receive adequate training. 4

At the request of, and in consultation with, the Board, the Department of Commerce’s
OIG developed a survey 5 to obtain a current benchmark of the acquisition and grant
staffing levels in the Government. The survey also attempted to capture projected
workforce staffing and qualifications data over the next year as Recovery Act funds
continue to be disbursed.

The OIGs of Federal agencies that received Recovery Act funds were requested to
coordinate the completion of the survey by their respective agencies. As requested by
the Department of Commerce’s OIG, we forwarded SSA’s completed survey on
September 11, 2009.

To perform this evaluation, we interviewed Agency staff to determine how OAG ensures
contracts and grants staff receive required training and certification and how the Agency



1
 Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-71 to H.R. 1-72; and Division B, Title II § 2201(e)(2), H.R.
1-339.
2
    Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-72.
3
    Pub. L. No. 111-5, Division A, Title XV § 1523 (a)(1), H.R. 1-176.
4
    Pub. L. No. 111-5, Division A, Title XV § 1523 (a)(2)(D) and (E), H.R. 1-176.
5
    RAT Board Contract and Grant Staffing and Qualification Survey.


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                          1
manages the additional Recovery Act work (see Appendix B). Additionally, we reviewed
SSA’s completion of the Contract and Grant Staffing and Qualification Survey and
validated the responses. 6

The quality and effectiveness of the Federal acquisition process depend on the
development of a competent workforce. The Office of Management and Budget’s
(OMB) Office of Federal Procurement Policy (OFPP) has statutory responsibilities 7 to
foster and promote the development of a professional acquisition workforce for
employees in civilian agencies of the Executive Branch. The passage of the Services
Acquisition Reform Act of 2003 provided the backdrop for more strategic human capital
planning of the acquisition workforce in civilian agencies. Since 2003, OFPP has issued
the following policies and guidance related to the acquisition workforce.

• April 15, 2005 - OFPP Policy Letter 05-01, Developing and Managing the Acquisition
  Workforce.

• January 20, 2006 - OMB Memorandum, The Federal Acquisition Certification in
  Contracting Program.

• April 25, 2007 - OFPP Memorandum, The Federal Acquisition Certification for
  Program and Project Managers.

• November 26, 2007 - OFPP Memorandum, The Federal Acquisition Certification for
  Contracting Officer Technical Representatives.

• May 21, 2008 - OFPP Memorandum, Conducting Acquisition Assessments Under
  OMB Circular A-123.

OMB’s Updated Implementing Guidance for the Recovery Act of 2009 issued
April 3, 2009, 8 describes specific contract-related risk mitigation actions that agencies
should consider. It is critical that agencies evaluate their workforce needs so they are
able to appoint qualified Contracting Officers (CO), Contracting Officer Technical
Representatives (COTR), and Program and Project Managers (P/PM) with certification
levels appropriate to the complexity and risk of Recovery Act projects.




6
  The survey included questions about contracts and grants. SSA does not plan to use any Recovery Act
funds to award financial assistance agreements, such as grants, loans, or cooperative agreements.
Therefore, the survey questions related to grants did not apply to SSA and were not addressed.
7
    41 U.S.C. §§ 405(a) and 433(b)(3) and (g).
8
  OMB Memorandum M-09-15 § 6.3; Are there actions, beyond standard practice, that agencies must
take related to the monitoring of contracts under Recovery Act?


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                 2
SSA plans to issue new awards and modifications to existing awards using Recovery
Act funds to support the (1) issuance of Economic Recovery Payments;9 (2) Health
Information Technology (HIT) awards; 10 (3) purchase of equipment for the new
employees hired, using Recovery Act funds, to process the disability and retirement
workloads; 11 and (4) replacement of the Agency’s National Computer Center (NCC). 12
The General Services Administration will acquire the land and building for the NCC. If
any funds remain after the construction, OAG plans to acquire equipment for that
facility. Additionally, the OIG received $2 million to provide for audit and oversight of the
Agency’s programs, projects, and activities funded by the Recovery Act dollars.13 We
are using a portion of these funds for a contract, awarded through OAG to provide
consulting services to evaluate SSA’s (1) process for selecting the replacement strategy
for its NCC and (2) efforts toward implementing the strategy.

SSA has issued, or plans to issue, approximately 42 contract awards using Recovery
Act funds. These include modifications to existing awards totaling an estimated
$21 million. Included in the 42, are 20 HIT awards, totaling $24 million, the Agency
anticipates awarding by January 2010.




9
  Pursuant to the Recovery Act, Pub.L. No. 111-5, Division B, Title II § 2201, H.R. 1-336 to 1-341,
$90,000,000 was appropriated for SSA’s costs incurred in carrying out the provisions of the Recovery Act
related to processing a one-time payment of $250 to qualified individuals receiving Social Security
benefits and Supplemental Security Income.
10
  The Recovery Act provides for an appropriation to SSA of “$500,000,000 for processing disability and
retirement workloads, including information technology acquisitions and research in support of such
activities: Provided, That up to $40,000,000 may be used by the Commissioner of Social Security for
health information technology research and activities to facilitate the adoption of electronic medical
records in disability claims, including the transfer of funds to ’Supplemental Security Income Program’ to
carry out activities under section 1110 of the Social Security Act.” Pub. L. No. 111-5, Division A, Title VIII,
H.R. 1-71 to 1-72.
11
     Id.
12
  The Recovery Act indicates that $500,000,000 shall remain available until expended for necessary
expenses of the replacement of the NCC and the information technology costs associated with the NCC.
13
  The Recovery Act indicates that the $2,000,000, shall remain available for such purposes through
September 30, 2012. Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-72.


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                          3
                                                          Results of Review
OAG has taken steps to ensure it has sufficient qualified staff to process Agency
acquisitions funded with Recovery Act dollars. OAG hired additional staff to support the
work.

Staff Hired and Existing Staff Available to Handle Recovery Act Acquisitions

To ensure there is sufficient staff in OAG to process Recovery Act acquisitions, the
Agency hired eight new staff. The eight individuals were either reemployed annuitants
or transfers from other Federal agencies. The reemployed annuitants were former OAG
employees and were given assignments to mentor trainees and manage the simplified
acquisition workload. 14 The transferred employees were assigned to existing
workloads—including the administration of awarded contracts, contract closeout
activities, and new awards—to allow existing staff to work on the Recovery Act
workload. According to OAG, using COs to process Recovery Act contracts is expected
to have minimal impact on SSA’s non-Recovery Act acquisition workload.

The categories of staff covered in the Board survey and this evaluation are as follows:

     •   COs,
     •   COTRs,
     •   P/PMs, and
     •   Contracting Support Personnel.

Table 1 reflects the number of staff in each category on-hand to process Recovery Act
transactions taken from SSA’s response to the Board survey. These employees are not
dedicated solely to Recovery Act work.

             Table 1 – Number of Staff On-hand to Process Recovery Act Transactions
                        As of the End Date for Each of the Specified Periods
                                                           Actual     Forecasted  Forecasted
           Agency Recovery Act Workforce                 4/1/2009 -    7/1/2009 -  1/1/2010 -
                                                         6/30/2009    12/31/2009   6/30/2010
 COs                                                         15            16           9
 COTRs                                                        5             2           2
 P/PMs                                                        3             5           2
 Contracting Support Personnel                                7             4           4
                                              Totals         30            27          17

The Agency’s survey comments concluded it had sufficient qualified staff in each
category to process Agency acquisitions funded with Recovery Act dollars.


14
  Federal Acquisition Regulation (FAR) provides, in part, that Agencies shall use simplified acquisition
procedures to the maximum extent practicable for all purchases of supplies or services not exceeding the
simplified acquisition threshold. 48 C.F.R. § 13.003(a).


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                    4
Training and Certification of Recovery Act Acquisitions Staff

OFPP-published Policy Letter 05-01, Developing and Managing the Acquisition
Workforce, established new training guidance for the entire civilian acquisition workforce
and new certifications in targeted acquisition career fields. The Policy Letter required
that the Federal Acquisition Institute (FAI) develop a certification program for contracting
professionals in civilian agencies to reflect common standards. OFPP’s goal in
establishing the three resulting certification programs was to make available a
Government-wide standard for education, training, and experience leading to core
competencies in a variety of acquisition-related disciplines. While OFPP’s certification
programs are not mandatory, SSA had two internal certification programs for COs and
P/PMs in place before converting to the OFPP programs. The requirements for OFPP
programs are detailed below.

• The Federal Acquisition Certification (FAC) in Contracting (FAC-C) program
  established core requirements for education, training, and experience for contracting
  professionals in civilian agencies. 15

• The FAC-COTR established general training requirements for COTRs in civilian
  agencies. Under this program, COTRs are required to obtain certain competencies
  for certification and maintain their certification through continuous learning
  opportunities. 16

• The FAC-P/PM established general training and experience requirements for
  program and project managers in civilian agencies. The FAC-P/PM focuses on
  essential competencies needed for program and project managers; however, the
  program does not include functional or technical competencies, such as those for
  information technology or agency-specific competencies.17

Before implementing the FAC-C program, SSA had an internal certification program in
place to certify its COs. OAG worked with FAI to crosswalk SSA’s existing certification
program with the new FAI certifications to ensure SSA staff met the requirements of the
FAC-C program. Our review of the FAC-C certifications did not disclose any issues.
During our review, we determined that eligible employees were certified, and new
employees received the necessary training and experience to become eligible to apply
for certification, including all COs processing Recovery Act awards.

SSA did not have a program in place for certifying its COTRs. SSA requires that
individuals obtain 40 hours of training consistent with the requirements set forth by FAI

15
     OMB Memorandum, The Federal Acquisition Certification in Contracting Program, January 20, 2006.
16
  OMB Memorandum, The Federal Acquisition Certification for Contracting Officer Technical
Representatives, November 26, 2007.
17
  OMB Memorandum, The Federal Acquisition Certification for Program and Project Managers, April 25,
2007.


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                    5
before serving as a COTR. SSA did have a draft plan to implement the FAC-COTR
program and expects to implement the program by July 2010. During our review, we
determined that all Agency COTRs assigned to active contracts were documented in
OAG’s training database. However, the database was not kept up-to-date to ensure
COTRs who were no longer with the Agency were removed. Additionally, the database
did not reflect a COTR’s transfer from one Agency component to another.

We determined that all the Agency’s P/PMs met the training and experience
requirements for certification as FAC-P/PMs, which includes all P/PMs processing
Recovery Act awards. The Agency crosswalked its certification program for P/PMs to
the OFPP program to ensure SSA staff met the requirements of the FAC-P/PM
program. Our review of the FAC-P/PM certifications did not disclose any issues.

Table 2 reflects the count of certified staffs in each category on-hand to process
Recovery Act transactions, taken from SSA’s response to the Board survey.

                     Table 2 – Number of Certified Staff On-hand in Each Category
                          As of the End Date for Each of the Specified Periods
                                                             Actual     Forecasted         Forecasted
             Agency Recovery Act Workforce                 4/1/2009 -    7/1/2009 -         1/1/2010 -
                                                           6/30/2009    12/31/2009          6/30/2010
 COs who have received or will receive FAC-C or
 Defense Acquisition Workforce Improvement Act of
                              18
 1990 (DAWIA) certification                                    10            14                 7
 COTRs who have received or will receive FAC-COTR
               19
 certification                                                  0             0                 0
 P/PMs who have received or will receive FAC-P/PM or
 DAWIA certification                                            3             5                 2
 Contracting Support Personnel who satisfy or will
                                          20
 satisfy all agency-specific requirements                       0             0                 0
                                                Totals         13            19                 9

Using newly hired and existing acquisition staff, SSA should have sufficient and
adequately trained and certified staff to process all its planned and actual Recovery Act
acquisitions.


18
   Refer to Table 1: Actual—According to OAG, of 15 COs in Table 1, 10 are FAC-C certified. The
following do not require a FAC-C certification: two with trainee warrants; two warranted under a prior
Agency certification program; and one outside the GS-1102 series with a special delegation of authority.
Forecasted 2009—14 of 16 COs reflected in Table 1 have been, or will be eligible to be, certified by
period end date. Two with special delegation outside the GS-1102 series are not required to be FAC-C
certified. Forecasted 2010—seven of the nine COs in Table 1 have been, or will be eligible to be,
certified by period end date. Two with special delegation outside the GS-1102 series are not required to
be FAC-C certified.
19
   SSA does not have a formal program in place for certifying COTRs. However, SSA does have a draft
plan and expects to implement it by July 2010. Agency requirements in place are minimally equivalent to
the FAC-COTR program which is 40 hours of COTR training.
20
     There are no Agency or FAC certification requirements for Contracting Support Personnel.


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                        6
                                   Matters for Consideration
SSA has a database to document the names of staff who have taken the Agency’s
required COTR training. We found the database was not updated as employees left the
Agency or transferred from one Agency component to another. OAG staff informed us
that they merely add newly trained staff to the database but do not monitor the system
to reflect changes in the status of employees. The database should be periodically
reconciled with SSA’s Office of Personnel.

Our review also noted that SSA did not have a formal program in place for certifying its
COTRs. However, SSA has a draft plan to meet the FAC-COTR requirements and
expects to implement it by July 2010. Currently, SSA requires that individuals obtain
40 hours of training consistent with the requirements set forth by FAI before serving as
a COTR. COTRs perform critical Agency acquisition and technical functions. The
Agency should continue its plan to implement the FAC-COTR structured training
program for COTRs and other individuals performing these functions to achieve
standard competencies and training. SSA anticipates it will no longer need the COTR
training database once SSA implements the FAC-COTR program in July 2010.




OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                        7
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)
                                                                        Appendix A

Acronyms
    Board                   Recovery Accountability and Transparency Board

    CO                      Contracting Officer

    COTR                    Contracting Officer Technical Representative

    DAWIA                   Defense Acquisition Workforce Improvement Act of 1990

    FAC                     Federal Acquisition Certification

    FAC-C                   Federal Acquisition Certification for Contracting Officer

    FAC-COTR                Federal Acquisition Certification for Contracting Officer
                            Technical Representative
    FAC-P/PM                Federal Acquisition Certification for Program and Project
                            Manager
    FAI                     Federal Acquisition Institute

    HIT                     Health Information Technology

    NCC                     National Computer Center

    OAG                     Office of Acquisition and Grants

    OFPP                    Office of Federal Procurement Policy

    OIG                     Office of the Inspector General

    OMB                     Office of Management and Budget

    P/PM                    Program and Project Managers

    Pub. L.                 Public Law

    Recovery Act            American Recovery and Reinvestment Act of 2009

    SSA                     Social Security Administration

    U.S.C.                  United States Code




OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective we:

      Reviewed applicable sections of the American Recovery and Reinvestment Act
       of 2009 (Recovery Act).

      Reviewed Office of Management and Budget (OMB) memorandums for the
       heads of departments and agencies.

             M-09-10, Initial Implementing Guidance for the America Recovery and
              Reinvestment Act of 2009, February 18, 2009

             M-09-15, Updated Implementing Guidance for the American Recovery and
              Reinvestment Act of 2009, April 3, 2009

             M-09-21, Implementing Guidance for the Reports On Use of Funds
              Pursuant to the American Recovery and Reinvestment Act of 2009,
              June 22, 2009, and Supplement 1, List of Programs Subject to Recipient
              Reporting Requirements, and Supplement 2, Recipient Reporting Data
              Model

             M-09-25, Improving Government Acquisition, July 29, 2009

             The Federal Acquisition Certification in Contracting Program, January 20,
              2006

             The Federal Acquisition Certification for Program and Project Managers,
              April 25, 2007

             The Federal Acquisition Certification for Contracting Officer Technical
              Representatives, November 26, 2007

      Reviewed OMB Circular No. A-11, Part 7, Planning, Budgeting, Acquisition, and
       Management of Capital Assets.

      Reviewed the Social Security Administration (SSA) Flash Notice 05:09-01,
       Requirements for Contract Actions Funded by The American Recovery and
       Reinvestment Act (Recovery Act).

      Reviewed SSA’s Recovery Act information posted at
       www.socialsecurity.gov/recovery and www.recovery.gov.




OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                     B-1
       Assessed the Office of Acquisition and Grants’ (OAG) completion of the
        Recovery Accountability and Transparency Board Contract and Grant Staffing
        and Qualification Survey by

               interviewing OAG employees to discuss the methodology used to respond
                to the survey questions,

               reviewing documentation to validate survey responses, and

               reviewing contracting officers’ and program and project managers’
                certifications of training and education documentation maintained by OAG.

       Interviewed OAG staff to determine how

               OAG ensures contract staff has completed their certification and hours,
                and

               SSA prepared for the additional Recovery Act work.

       Provided the Department of Commerce’s Office of Inspector General with SSA’s
        survey response by Friday, September 11, 2009.

We performed our review in Baltimore, Maryland, from July through September 2009.
We conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)                                   B-2
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager

Acknowledgments
In addition to those named above:

   Jackie Patel, Senior Auditor

   Donna Parris, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-11011.




OAG’s Staffing to Process Recovery Act Acquisitions (A-15-10-11011)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
